March 10, 2010

TIMOTHY HEALY
VICE PRESIDENT, RETAIL PRODUCTS AND SERVICES

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUBJECT: Management Advisory – Vending Operations Closure
         and Financial Risk (Report Number FF-MA-10-001)

This management advisory presents our results from the Performance and Results
Information Systems Vending Risk Model (Project Number 10BO001FF001). The
objective of this review was to determine whether field units closed vending operations
by September 30, 2009, as prescribed by Postal Service Headquarters. This advisory
addresses financial risk. See Appendix A for additional information about this review.

Conclusion

The Postal Service has closed approximately 2,261 vending accountabilities with stamp
stock balances valued at more than $34 million over the past year.1 However, our
vending risk model shows that not all field units closed out vending stamp stock
accountabilities and deposited vending cash by the end of fiscal year (FY) 2009. As of
January 8, 2010, the Postal Service had vending operations at 402 units with over
$1.8 million in stamp stock balances and five self-service postal centers (SSPC) with
$16,742 in undeposited cash. In addition, based on previous audit results, we are
concerned there could be additional undeposited cash at traditional vending units.2 Not
closing out vending accountabilities and depositing cash increases the risk of loss to the
Postal Service. See Appendix B for our detailed analysis of this topic. See Appendix C
for monetary and non-monetary impacts.




1
  As of August 2009, the Postal Service had approximately 850 vending units with stamp stock totaling over $6.4
million.
2
  We were able to identify SSPCs’ undeposited cash since SSPCs have their own 10-digit unit finance number as a
separate reporting unit. Traditional vending credits are under a retail unit as part of their Postal Service (PS) Form
1412, Daily Financial Report; therefore, we could not determine undeposited cash for traditional vending units.
Vending Operations Closure and Financial Risk                                FF-MA-10-001



We recommend the vice president, Retail Products and Services, in coordination with
the vice president, Delivery and Post Office Operations, direct Area Operations
management to:

1. Investigate all remaining stamp stock balances and close and zero out the vending
   accountabilities.

2. Identify and deposit all undeposited cash associated with the vending
   accountabilities.

3. Provide a periodic status to the vice president, Retail Products and Services, and
   vice president, Delivery and Post Office Operations, until all remaining vending
   accountabilities are closed and zeroed out and cash associated with the vending
   accountabilities is deposited.

Management’s Comments

Management agreed with the finding and recommendations. Postal Service
headquarters management stated each area will be contacted to investigate, zero out
and close all open vending accountabilities by the end of Quarter 2, FY 2010. In
addition, area operations management will be directed to identify and deposit cash
assigned to vending accountabilities by the end of Quarter 3, FY 2010. Furthermore,
beginning in March 2010, a monthly status report will be sent to the vice president,
Retail Products and Services, and vice president, Delivery and Post Office Operations,
until all remaining vending accountabilities are closed and zeroed out; and cash
associated with vending accountabilities is deposited. See Appendix D for
management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and corrective actions should resolve
the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                2
Vending Operations Closure and Financial Risk                                 FF-MA-10-001




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, director,
Field Financial - West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    Stephen J. Masse
    Drew T. Aliperto
    Megan J. Brennan
    Sylvester Black
    Ellis A. Burgoyne
    Jo Ann Feindt
    Timothy C. Haney
    Jerry D .Lane
    Linda J. Welch
    Sally K. Haring




                                                3
Vending Operations Closure and Financial Risk                                                    FF-MA-10-001



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service implemented a program in October 2006 to phase out approximately
23,000 stamp vending machines from post offices and retail locations across the
country by the end of FY 2010. In July 2009, the Postal Service accelerated the
vending machine phase out to be completed by the end of FY 2009. To meet the new
deadline, the Postal Service instructed units to place closure notices on all remaining
machines by August 31, 2009, and close out all vending accountabilities by
September 30, 2009.

During FY 2009, the OIG developed a vending risk model based on financial data in the
Enterprise Data Warehouse, which ranked the Postal Service’s districts by financial
risks associated with vending operations. We discussed the model with Retail Services
and Finance managers to obtain their input and feedback. We used the model to
initiate audits in the Rio Grande and Los Angeles Districts.3 In addition, in July 2009,
we provided risk model results to area finance and marketing managers to assist them
with closing out vending operations. Further, in September 2009, we developed an
online web-based forum4 to obtain feedback from district finance and marketing
managers on their vending closure process and progress.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this review is to determine whether field units closed vending
operations by September 30, 2009, as directed by Postal Service Headquarters. To
accomplish our objective, we analyzed Postal Service financial data in the Enterprise
Data Warehouse for the period September 5, 2009, through January 8, 2010.

Using our vending risk model, we identified units that had ending stamp stock balances
that exceeded zero. In addition, we retrieved the cash retained5 data for SSPCs by
extracting the totals listed in Account Identifier Code (AIC) 753, Cash Retained Today,
on the SSPCs’ last submitted PS Forms 1412, which range from January 15, 2008,
through January 8, 2010. Further, we used the retail operations website6 and the Retail
Digest7 to identify the vending machine removal policies and procedures.




3
  Rio Grande District – Vending Operations Risk (Report Number FF-AR-09-205, dated August 6, 2009) and Fiscal
Year 2009 Los Angeles District Financial Risk (Report Number FF-AR-10-028, dated December 3, 2009).
4
  Forums provide an opportunity to have a conversation, usually about a specific topic.
5
  Cash held and amounts received after the last deposit.
6
  Accounting Policy, HQ Finance http://blue.usps.gov/retail/_Equip/_doc/vnd_Closing%20an%20SSPC.doc.
7
  Retail Digest, Weekly Messages from USPS Retail, July 24, 2009.




                                                       4
     Vending Operations Closure and Financial Risk                                                        FF-MA-10-001



     We conducted this review from December 2009 through March 2010 in accordance with
     the Quality Standards for Inspections.8 We discussed our observations and conclusions
     with management officials on January 27, 2010, and included their comments where
     appropriate. Although, we did not test the reliability of computer-generated data
     supporting the management advisory, we tested the vending risk model data while
     performing the Rio Grande and Los Angeles District audits and determined that the
     information extracted for our model has been reliable.

     PRIOR AUDIT COVERAGE

     The OIG issued two reports addressing vending operations based on the Vending Risk
     Model.

                                                                        Non-
  Report         Report           Final Report        Monetary        monetary
   Title        Number                Date             Impact          Impact                   Report Results
Rio           FF-AR-09-205          August 6,           $15,369        $185,244       Internal controls over vending
Grande                                2009                                            were not in place and effective at
District –                                                                            six of the 10 units audited. At
Vending                                                                               these units, management did not
Operations                                                                            conduct a final credit examination
Risk                                                                                  and close vending credits totaling
                                                                                      $185,244. Five units did not
                                                                                      return vending stamp stock to the
                                                                                      Stamp Distribution Office (SDO)
                                                                                      for destruction. In addition, five
                                                                                      units did not make final deposits
                                                                                      of vending cash totaling $9,241.
                                                                                      Management agreed with the
                                                                                      findings and recommendation.
Fiscal        FF-AR-10-028         December 3,         $250,151       $2,246,784      Various internal controls at 10
Year 2009                             2009                                            units were not in place and
Los                                                                                   effective. In addition, related to
Angeles                                                                               vending, management at two
District                                                                              units did not close
Financial                                                                             accountabilities, deposit cash
Risk                                                                                  totaling $7,005, and return stock
                                                                                      totaling $54,797 to the SDO after
                                                                                      deactivating and removing
                                                                                      vending machines from service in
                                                                                      June 2008. Management agreed
                                                                                      with the findings and
                                                                                      recommendation.



     8
      These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
     Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, the Inspector General Act of 1978,
     as amended by the IG Reform Act of 2008, created the Council of the Inspectors General on Integrity and Efficiency
     (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been
     amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                                              5
Vending Operations Closure and Financial Risk                                                    FF-MA-10-001



                                APPENDIX B: DETAILED ANALYSIS

Units Have Vending Stamp Stock Balances and Undeposited Cash

Over the past year, the Postal Service has closed approximately 2,261 accountabilities
with stamp stock balances valued at more than $34 million. However, our vending risk
model shows field units did not close out all vending accountabilities and deposit cash
by the date established by Postal Service Headquarters. Specifically, as of January 8,
2010, 402 units have stamp accountability balances totaling over $1.8 million. In
addition, at least five units have $16,742 in undeposited vending cash. Further, we are
concerned there could be additional undeposited cash at traditional vending units
because previous audit results included issues related to undeposited cash at traditional
vending units that had ceased operating. Postal Service policy for vending closures
requires zeroing out of the accountability and depositing cash.9 Not closing out vending
accountabilities and depositing cash increases the risk of loss to the Postal Service.

Stamp Stock Balances

While some of the vending stamp stock balances may be immaterial, 239 (or over 59
percent of the 402 units identified), had stamp stock balances greater than $1,000 as of
January 8, 2010, as shown in the following table:

              Number of Units With Vending Stamp Stock Balances by Dollar Range


                                   Vending Stamp Stock                Number
                                       Balance Range                  of units
                                Less than $1                                 20
                                $       1    -$     100                      72
                                $    101     - $ 1,000                       71
                                $ 1,001      - $ 10,000                    189
                                $ 10,001     - $ 25,000                      42
                                $ 25,001     - $100,000                       7
                                More than $100,000                            1


                                Total                                        402


Of the 74 Postal Service districts, 41 have vending stamp accountability balances. As
shown in the following table, the district with the largest number of accountabilities has
42 units with vending stock accountability balances totaling $289,221.



9
    Accounting Policy, HQ Finance http://blue.usps.gov/retail/_Equip/_doc/vnd_Closing%20an%20SSPC.doc.




                                                        6
  Vending Operations Closure and Financial Risk                                                          FF-MA-10-001



                        Vending Stamp Stock Accountability Balances by District

                                                              November 2008                     January 2010
                                                                      Stamp Stock                         Stamp Stock
                                                        Number       Accountability      Number          Accountability
Count        Area                    District10         of Units        Balance          of Units           Balance
  1     Capital Metro     Baltimore                            66          $1,391,680          2911            $324,118
                                                                                                    10
  2     Capital Metro     Greensboro                          118            1,441,557         42               289,221
  3     Capital Metro     Richmond                             72            1,874,717         22               213,176
                                                                                                    10
  4     Pacific           Sacramento                           91              769,208         24               165,301
  5     Pacific           Bay-Valley                           62            1,116,307         24               142,454
  6     Capital Metro     Capital                              64            1,231,480         19               106,281
  7     Southeast         Alabama                             100            $328,137          25                56,450
  8     Eastern           Philadelphia                         86              995,234         26                51,840
                                                                                                    10
  9     Capital Metro     Northern Virginia                    30              851,541          6                49,507
                                                                                                    10
 10     Northeast         Triboro                              48              787,061          7                41,424
 11     Capital Metro     Greater South Carolina               80              891,302         14                35,182
                                                                                                    10
 12     Pacific           Santa Ana                            82            3,385,635         10                33,285
                                                                                                 10
 13     Pacific           Sierra Coastal                      117            1,543,830        15                 32,724
 14     Northeast         Connecticut Valley                   30              114,676          8                32,407
 15     Southeast         South Georgia                        56              146,544          9                27,915
                                                                                                    10
 16     Western           Hawkeye                                2              56,683          2                27,689
 17     Northeast         Caribbean                            17              256,752          9                26,573
 18     Southeast         Suncoast                             29              122,898          9                26,505
 19     Eastern           Cincinnati                           30            1,262,303         10                23,954
 20     Pacific           San Francisco                        66            1,186,013         10                21,531
                                                                                                    10
 21     Pacific           Los Angeles                          30              927,155         11                16,839
 22     Northeast         Albany                               21               86,677         10                15,985
 23     Southeast         Atlanta                              33              182,988         15                13,387
 24     Northeast         Greater Boston                         8             110,456          2                11,288
 25     Northeast         Northern New England                 21              146,701          4                10,053
 26     Pacific           Honolulu                             22              329,364          4                  9,342
 27     Northeast         Westchester                          34              282,405          6                  8,813
                                                                                                 10
 28     Northeast         Northern New Jersey                  99              913,751          3                  8,115
 29     Southeast         North Florida                          8              70,126          2                  8,014
 30     Southeast         South Florida                        27              186,506          1                  6,554
 31     Eastern           Appalachian                          25               47,884          7                  5,670


  10
     The Postal Service closed the Central Florida, Central Jersey, Erie, Massachusetts, New Hampshire/Vermont, and
  Spokane Districts, and merged their functions with 10 surrounding districts. The district and unit realignment is
  reflected in the data above.
  11
     The number of units includes one or more SSPCs.




                                                          7
   Vending Operations Closure and Financial Risk                                               FF-MA-10-001



                                                        November 2008                    January 2010
                                                                 Stamp Stock                    Stamp Stock
                                                   Number       Accountability      Number     Accountability
Count         Area                   District10    of Units        Balance          of Units      Balance
  32     Capital Metro     Mid-Carolinas                151           1,183,894            1            4,160
                                                                             12
  33     Eastern           Northern Ohio                  2            49,596              1             2,915
  34     Great Lakes       Greater Michigan              13             25,684             2             2,752
  35     Eastern           Western Pennsylvania          19             55,935             3             2,369
  36     Great Lakes       Chicago                        6            231,395             2             1,852
  37     Western           Colorado/Wyoming               0                     0          1            1,595
  38     Great Lakes       Gateway                       88            673,414             4             1,366
  39     Great Lakes       Lakeland                      38            679,281             1                  54
  40     Northeast         Southeast New England          9             23,790             1                   8
  41     Southwest         Louisiana                     20             67,199             1                   1
Districts with no vending stamp stock balances          743          10,430,248            0                   0

Totals                                                  2,663       $36,458,008          402        $1,858,667



   The following chart shows the stamp stock balances and the number of units by Postal
   Service area.




                                                    8
Vending Operations Closure and Financial Risk                                                       FF-MA-10-001



Undeposited Cash

The 402 units with vending stamp stock balances include 19 SSPCs, five of which also
had undeposited cash totaling $16,742.12 Although we cannot easily determine if there
is undeposited cash associated with the remaining units, we are concerned the
traditional vending units with stamp stock balances may also have undeposited cash.13
During recent work in the Rio Grande and Los Angeles Districts, we identified
undeposited cash of $9,200 and $7,000, respectively, associated with traditional
vending units that had ceased operating but still had stamp stock balances.14


                                    SSPC Cash Retained By District

                                                                          Number         Cash
               Count      Area                    District                of Units      Retained
                 1        Capital Metro           Greensboro                  1            $4,800
                 2        Pacific                 Sacramento                 1              4,000
                 3        Pacific                 Los Angeles                1              1,328
                 4        Northeast               Triboro                    2              6,614

               Totals                                                          5           $16,742


OIG DISCUSSION FORUM RESULTS

In September 2009, the OIG held a web-based online forum and invited district finance
and marketing managers to comment on two questions regarding Postal Service
vending closures. In the forum, we explained the Postal Service had accelerated the
removal date for all vending machines to the end of FY 2009. We asked the following
questions:

            Do you anticipate any problems with removing vending machine and closing
             accountabilities by the end of FY 2009?

            How is the district monitoring vending machine removals and accountability
             closures between now and the end of FY 2009?

The forum generated 20 postings and respondents stated that, generally, they had
removed vending machines and closed accountabilities or would close out vending
operations by the end of FY 2009. Two respondents anticipated or had experienced

12
   The cash retained ranged from $1,328 to $5,028.
13
   The remaining 383 units (402 total units minus the 19 SSPCs) represent traditional vending and their financial
activity cannot be isolated from retail operations without physical verification.
14
   Rio Grande District – Vending Operations Risk (Report Number FF-AR-09-205, dated August 6, 2009) and Fiscal
Year 2009 Los Angeles District Financial Risk (Report Number FF-AR-10-028, dated December 3, 2009).




                                                         9
Vending Operations Closure and Financial Risk                                                            FF-MA-10-001



problems related to vending accountabilities not being zeroed out after machines are
removed from service or accountabilities being reopened when employees log into the
Point-of-Service System and accidentally select the vending role.

Respondents from four districts15 stated they had already removed the vending
machines and closed vending operations. However, as of January 8, 2010, these four
districts had 55 units with stamp stock accountability balances totaling $125,216. The
forum information indicates that procedural issues may have contributed to the
outstanding stamp stock accountability balances and undeposited cash.




15
   The OIG’s online forum was set up for anonymity; however, these respondents self-identified their districts in the
forum.




                                                          10
Vending Operations Closure and Financial Risk                                                        FF-MA-10-001



               APPENDIX C: MONETARY AND NON-MONETARY IMPACTS

                                              Monetary Impact

           Finding                                 Impact Category                         Amount
           Undeposited cash                  Recoverable Revenue Loss16                     $16,742




                                          Non-Monetary Impact

           Finding                                Impact Category                         Amount
           Stamp stock balances              Accountable Items at Risk17                 $1,858,667




16
  Revenue that can be collected for goods delivered or services rendered.
17
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.




                                                        11
Vending Operations Closure and Financial Risk              FF-MA-10-001



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                12
Vending Operations Closure and Financial Risk        FF-MA-10-001




                                                13
